NOT RECOMMENDED FOR PUBLICATION
No. 20-5155

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

CORNELIUS KENYATTA CRAIG,
Plaintiff-Appellant,

)
)
)

ANDRE MATEVOUSIAN, Warden,

)
)
)
)

Respondent-Appellee.

)
)

v.

Jul 17, 2020
DEBORAH S. HUNT, Clerk

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
KENTUCKY

ORDER

Before: ROGERS, NALBANDIAN, and MURPHY, Circuit Judges.

Cornelius Kenyatta Craig, a federal prisoner, appeals pro se a district court judgment
denying his petition for a writ of habeas corpus, filed pursuant to 28 U.S.C. § 2241. This case has
been referred to a panel of the court that, upon examination, unanimously agrees that oral argument
is not needed. See Fed. R. App. P. 34(a).
In his petition, Craig stated that he was placed in administrative segregation on December
7, 2017, after he was accused of stabbing two other inmates, resulting in the death of one of them.
The case was referred to the FBI, but the U.S. Attorney eventually returned the case to the Bureau
of Prisons in September 2018. Craig was found guilty of murder and assault at a November 2018
hearing, as a result of which he lost good-time credits, was placed in disciplinary segregation, and
lost telephone and visitation privileges. He complained of delays in the process and that the
hearing officer declined to review a video of the fight, instead relying on the written report of an
officer who watched it. He later supplemented his petition to add a claim that he was denied access

No. 20-5155
-2to his central file. The district court denied the petition sua sponte. Craig reasserts his arguments
in his appellate brief.
The denial of a petition under § 2241 is reviewed de novo. Charles v. Chandler, 180 F.3d
753, 755 (6th Cir. 1999). When a prison disciplinary hearing may affect the length of a sentence,
such as by revoking good-time credits, a prisoner is entitled to written notice of the charge, a
written decision, an opportunity to present evidence, and the assistance of another person. Wolff
v. McDonnell, 418 U.S. 539, 564-66 (1974). Craig received all of this process. The failure to
adhere to guidelines in the disciplinary process is not a due process violation. See Smith v. City of
Salem, 378 F.3d 566, 578 (6th Cir. 2004). Here, the regulations stated that certain parts of the
proceedings would “ordinarily” take place within certain time periods. This was not the ordinary
prison discipline case, and these guidelines were not mandatory. Prison regulations do not confer
rights on inmates, but a due process deprivation may occur if an inmate is subjected to an atypichl
and significant deprivation. Sandin v. Conner, 515 U.S. 472,482-84 (1995). Craig argues that his
placement in administrative segregation for eleven months meets that standard, but the district
court found that, since Craig is no longer in administrative segregation but instead in disciplinary
segregation, the issue was moot because no habeas relief was available.
The disciplinary finding must also be supported by some evidence. Superintendent, Mass.
Corr. Inst., Walpole, v. Hill, 472 U.S. 445, 454 (1985). Craig complains that the hearing officer
did not view a video of the fight, instead relying on another official’s written report from his
viewing. Even if the video might have been helpful to Craig, the hearing officer’s reliance on the
written report does not nullify the fact that the hearing officer’s decision was supported by some
evidence. See Campbell v. Holt, 432 F. App’x 49, 51 (3d Cir. 2011). The disciplinary decision
was supported by the written report, which was corroborated by the medical evidence and the
statement of the surviving victim. The failure to review the video also did not deny Craig due
process. See Neal v. Casterline, 129 F. App’x 113, 115 (5th Cir. 2005).
Craig’s supplemental petition raised a claim that he was denied access to his central file,
particularly a notice of the right to remain silent and the order placing him in detention. The district

No. 20-5155
-3 court properly found this argument meritless because Craig did not give a statement in the
investigation and conceded that he was aware of the reason for his detention, and because the
denial of the documents occurred long after the disciplinary finding.
In short, the petition stated no basis for habeas relief. Accordingly, we AFFIRM the
district court’s j udgment.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case: 6:19-cv-00141-REW Doc #: 13 Filed: 12/27/19 Page: 1 of 15 - Page ID#: 103

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
SOUTHERN DIVISION
LONDON
CORNELIUS KENYATTA CRAIG,

)
)
)
)
)
)
)
)
)

Petitioner,
v.
GREGORY KIZZIAH, Warden,
Respondent.
$s|c)|:

$$$

No. 6:19-CVU41-REW

OPINION & ORDER

$$$

$$$

Pro se habeas Petitioner Cornelius Craig alleges that the Bureau of Prisons (“BOP”)
imposed disciplinary sanctions, based on Craig’s alleged stabbing of two inmates, without
affording him procedural due process. DE 1. The Court conducts an initial review under 28 U.S.C.
§ 2243. For the following reasons, and under the applicable standards, the Court DENIES the
petition. l
I.

BACKGROUND
a. Generally -

i

See Alexander v. Northern Bureau ofPrisons, 419 F. App’x 544, 545 (6th Cir. 2011). A petition
will be denied “if it plainly appears from the petition and any attached exhibits that the petitioner
is not entitled to relief.” Rule 4 of the Rules Governing § 2254 Cases in the United States District
Courts (applicable to § 2241 petitions pursuant to Rule 1(b)). The Court evaluates pro se petitions
under a more lenient standard. See Erickson v. Pardus, 127 S. Ct. 2197, 2200 (2007); Franklin v.
Rose, 765 F.2d 82, 84-85 (6th Cir. 1985) (noting that “allegations of a pro se habeas petition,
though vague and conclusory, are entitled to a liberal construction” including “active
interpretation” toward encompassing “any allegation stating federal relief’ (citations and internal
quotation marks omitted)). However, “[liberal construction does not require a court to conjure
allegations on a litigant’s behalf.” Erwin v. Edwards, 22 F. App’x. 579, 580 (6th Cir. 2001). And,
“under § 2243 it is the duty of the court to screen out frivolous applications!)]” Advisory
Committee Notes to Rule 4, Rules Governing § 2254 Cases; see also Neitzke v. Williams, 109 S.
Ct. 1827, 1831-32 (1989) (describing as “frivolous!,]” claims lacking “an arguable basis either in
law or in fact”).

Case: 6:19-cv-00141-REW Doc #: 13 Filed: 12/27/19 Page: 2 of 15 - Page ID#: 104

Since 1999, Craig has been serving a combined 75+ year sentence for his role in a series
of coordinated, armed carjackings in Alabama. United States v. Craig, No. 1:98-CR-99-KD-S-3
(S.D Ala. 1998); United States v. Craig, No. l:98-CR-158-KD-M-2 (S.D Ala. 1998). During
Craig’s incarceration at USP McCreary, on December 7, 2017, a fight broke out between inmates
affiliated with “St. Louis” and with the “South.” DE 1 -2 at 4-5 (Incident Reports). Prison officials
alleged that Craig, during the altercation, stabbed two inmates, Douglas Simpson and Leon
Jackson. Id. Simpson survived, but Jackson succumbed to his wounds soon after the stabbing. DE
7 at 5. Consequently, BOP charged Craig with Killing Any Person (a Disciplinary Code 100
offense) and Assaulting Any Person (a Disciplinary Code 101 offense). DE 1-2 at 2. Craig claims
that the BOP denied him procedural due process in resolving those charges.
Chronologically, other events relevant to Craig’s claims include:
- December 8,2017—Prison staff placed Craig in segregation on suspicion of killing another
inmate. DE 8-1 at 1.
- January 24, 2018—The investigating officer, BOP Lt. Robert Johnson, reviewed security
camera footage of the incident and issued an incident report. DE 1-2 at 2. Per Johnson’s
report, delivered to Petitioner on the date issued, the video showed Craig walking across
the prison unit, ascending a flight of stairs, and then stabbing Simpson and Jackson. Id.
The same day, “the incident report was suspended . . . pending FBI referral for possible
prosecution.” DE 7 at 4; see DE 1-1 at 6.
- September 17, 2018—The United States Attorney’s office released the incident report for
BOP processing. DE 7 at 4. The prison then redelivered the original report. DE 1-2 at 3.
- October 4, 2018—A Disciplinary Hearing Officer (“DHO”) ordered the incident report
rewritten for two purposes: (1) “to clarify the sequence of events that led up to the incident
along with explanation of time frames”; and (2) to clarify the particular victims that the
charged assault and killing referenced. DE 7 at 4; see DE 1-1 at 6.
- October 18,2018—Lt. Johnson issued two incident reports separately charging Craig with
the Jackson homicide and Simpson assault. DE 1-2 at 4-5.
-- October 22,2018—Staff delivered the rewritten reports to Craig. See id.; DE 1-1 at 7.

2

Case: 6:19-cv-00141-REW Doc #: 13 Filed: 12/27/19 Page: 3 of 15 - Page ID#: 105

- October 31, 2018—A Unit Discipline Committee (“UDC”) conducted an initial hearing on
the revised charges. DE 1-1 at 7. Craig asked “Lt. Rowe,” and Rowe agreed, to serve as
Petitioner’s staff representative. Id.
-- November 6, 2018—DHO Clint Hurley conducted a hearing on the charges. Id. at 7-8.
Craig, with Lt. Rowe again assisting, appeared and denied both charges. Id. at 8. The DHO,
as to both the assault and killing, ultimately concluded that “the act[s] [were] committed
as charged.” DE 7 at 3, 10. The DHO issued specific written findings as to both charges.
See id. at 4-7, 10-12.
b. Hearing Specifics & DHO Findings
At the November 2018 proceeding, Craig, to the DHO, expressed concern about delays
between the incident and the hearing. DE 7 at 2. The DHO “specifically addressed all time delays
throughout the disciplinary process[.]” Id. In response to both charges, Craig stated “I’m not guilty.
I didn’t stab him.” Id. at 2, 9. Craig inquired if the DHO had reviewed the incident footage. Id. at
2. The DHO explained that “the incident report was written based on Lt. Johnson’s video review
and subsequent investigation”; the DHO, thus, “saw no obvious reason” for further video review.
Id. Craig offered no evidence other than his denial of involvement. Id. at 2, 9. In response to the
DHO’s inquiry regarding whether Craig had “any issues or additional requests with the
disciplinary process[,]” Craig replied, “I just want all the stuff you got as evidence to be preserved.
I’m going to need it ifthey prosecute the case. Some of it may be helpful.” Id. The DHO considered
Craig’s testimony, medical records, witness statements, investigative reports, and photographic
evidence, and, ultimately, concluded that Craig committed both charged offenses. Id. at 3,10.
In reporting his findings as to the Code 100 “Killing” offense, DHO Hurley incorporated
Lt. Johnson’s rewritten report:
On January 25, 2018, at 12:03 p.m., an SIS Investigation into the homicide of Leon
Jackson, Reg. No. 40063-044, and the large scale fight between inmates affiliated
with the “South” and “St. Louis”, was concluded. During the investigation a review
of the ViconNet recorded video was conducted. The review determined the fight
started on the top tier of the A4 Housing Unit, at approximately 7:00 p.m. Inmate
Cornelius Craig, Reg. No. 07125-003, responded from the opposite side of the unit
3

-■

Case: 6:19-cv-00141-REW Doc #: 13 Filed: 12/27/19 Page: 4 of 15 - Page ID#: 106

to the fight, which was in progress on the upper tier of the A4 housing unit, near
cells 420-421. Craig was identified climbing the stairs and once he reached the top
tier landing, he struck inmate Douglas Simpson, Reg. No. 43059-044, in the right
side of his torso in a stabbing type motion and immediately turned and struck
inmate Leon Jackson, Reg. No. 40063-044, in a stabbing type motion, one time in
the upper left chest area, at approximately 7:05 p.m. No other inmate struck
Jackson. After Jackson was stabbed, he (Jackson) exited the area by running down
the tier towards the showers. Jackson began stumbling and falling down, and
collapsed in front of the upper tier showers. Inmates Simpson and Jackson were
transported to medical. Simpson was found to have received a pinpoint wound to
his upper right quadrant. Jackson was noted to have fixed pupils, shallow agonal
breaths, diminished lung sounds with respiratory wheezing and noted crackles and
bradycardia with irregular rate. One pinpoint puncture wound was noted to the left
side of his chest. Due to the severity of their wounds, Simpson and Jackson were
transported to the outside hospital for further treatment. Upon arrival, Jackson was
examined and pronounced deceased at 8:08 p.m. Simpson was treated and returned
to the institution on December 8, 2017 at 01:30 a.m. The Provisional Report of
Death issued by the Department of Public Health for the Commonwealth of
Kentucky, listed the manner of death as Homicide caused by a stab wound to the
left chest. It was determined inmate Cornelius Craig, Reg. No. 07125-003, caused
the death of inmate Leon Jackson, Reg. No. 40063-044, by stabbing him once in
the chest.
Id. at 4. While Craig denied any involvement in the incident, the DHO gave greater weight to the
institution’s proof. Id. at 5. The DHO relied on Lt. Johnson’s report, which itself relied on video
review, and noted the report’s consistency with the medical evidence regarding Jackson’s wound
and cause of death. Id. at 5-6.
As to the Code 101 “Assaulting” charge, the DHO again incorporated Lt. Johnson’s report:
On January 25,2018, at 12:03 p.m., an SIS Investigation into the homicide of Leon
Jackson, Reg. No, 40063-044, and the large scale fight between inmates affiliated
with the “South” and “St. Louis”, was concluded. During the investigation a review
of the ViconNet recorded video was conducted. The review determined the fight
started on the top tier of the A4 Housing Unit, at approximately 7:00 p.m. Inmate
Cornelius Craig, Reg. No. 07125-003, responded from the opposite side of the unit
to the fight, which was in progress on the upper tier of the A4 housing unit, near
cells 420-421. At approximately 7:05 p.m., Craig was identified climbing the stairs
and once he reached the top tier landing, he struck inmate Douglas Simpson, Reg.
No. 43059-044, in the side of his torso in a stabbing type motion. No other inmates
were identified striking inmate Simpson during the altercation. Inmate Simpson
was transported to medical. Simpson was found to have received a pinpoint wound
to his upper right quadrant. Simpson was transported to the outside hospital for
4

4

Case: 6:19-cv-00141-REW Doc #: 13 Filed: 12/27/19 Page: 5 of 15 - Page ID#: 107

further treatment. Simpson was treated and returned to the institution on December
8, 2017 at 01:30 a.m.
Id. at 11. The DHO, noting consistency with the medical proof, again found Johnson’s report more
compelling than Craig’s assertion of innocence. Id. at 11.
Based on the dual guilt findings, the DHO imposed multiple sanctions including, in total:
(A) disallowance of vested or non-vested 959 days of Good Conduct Time (“GCT”); (B) 270 days
of administrative segregation; (C) 42-month suspensions of telephone and visiting privileges, as
well as a 36-month suspension of commissary privileges; and (D) a $500 fine. See id. at 7, 12.
BOP staff delivered the DHO’s reports to Craig on November 15, 2018. Id. at 8,13.2
c. Craig’s Claims
Now before this Court, Petitioner argues that BOP’s handling of the subject charges violated his procedural due process rights. DE 1-1 at 16. Craig challenges his disciplinary
convictions on several grounds, arguing that:
(1) Delays between the December 2017 incident and BOP’s issuance of the January (original)
and October (rewritten) 2018 incident reports prejudiced his defense (DE 1-1 at 17-22;
DE 8);
(2) The DHO lacked authority to order rewriting of the incident report before a UDC hearing
and referral (DE 1-1 at 22-24);
(3) The October 31, 2018, UDC hearing was not held within five days after the incident report
was released for processing {Id. at 24-25);
(4) The BOP denied him a UDC hearing on Lt. Johnson’s initial incident report and, thus, the
opportunity to present evidence {Id. at 25);
(5) The BOP denied him access to documents relevant to his defense (DE 11); and
2 Craig asserts that he appealed his disciplinary convictions to the BOP’s regional and national
offices, but that the BOP did not timely respond, permitting him to deem those administrative
remedies exhausted. DE 1-1 at 9-15; DE 1-2 at 1. Craig further indicates that both the regional
office and the central office rejected his appeals on procedural grounds but contends that he cured
the defect that led to the regional office’s initial rejection. See DE 1-2 at 1. Given the limited
exhaustion record, the Court focuses its analysis on the merits of Craig’s claims.
5

Case: 6:19-cv-00141-REW Doc #: 13 Filed: 12/27/19 Page: 6 of 15 - Page ID#: 108

(5) The DHO failed to consider exculpatory evidence when he relied upon the investigating
officer’s summary of what the video footage showed instead of reviewing it himself (DE
1-1 at 26-28).
The Court, upon thorough review and for the following reasons, finds that Craig is plainly not
entitled to relief.
II.

ANALYSIS
Before prison officials impose certain sanctions, e.g., forfeiture of an inmate’s good time

credits, procedural due process requires that the institution provide: “1) written notice of the
charges at least twenty-four hours in advance of the hearing; 2) a written decision explaining the
evidence relied upon and the reasons for the disciplinary action; 3) an opportunity to call witnesses
and present documentary evidence; and 4) the assistance of staff or a competent inmate when
necessary.” Julickv. Snyder-Norris, No. 16-6652,2017 WL 5485453, at *1 (6th Cir. Mar. 1,2017)
(citing Wolff v. McDonnell, 94 S. Ct. 2963, 2978-80 (1974)). Finally, and to avoid “arbitrary
deprivations” of good time, “some evidence in the record” must “support the [BOP’s]
conclusion[.]” Superintendent v. Hill, 105 S. Ct. 2768, 2774 (1985) (“[T]he relevant question is
whether there is any evidence in the record that could support the conclusion reached by the
disciplinary board.”).
Further and foundationally, procedural due process is not a detached right. Rather, it links
to otherwise protected interests, i.e., “life, liberty, or property[.]” U.S. Const., Am. V; see Manley
v. Law, 889 F.3d 885, 891 (7th Cir. 2018) (“Procedural due process protects only interests that are
freestanding entitlements protected against injury or deprivation[.]”). Thus, to survive screening
here, Craig must claim more than procedural missteps, he must present a non-ffivolous claim that
ties imposition of an “atypical and significant hardship [for] an inmate in relation to the ordinary
incidents of prison life[,]” i.e., a protected liberty interest, to an unconstitutional process. Sandin
6

Case: 6:19-cv-00141-REW Doc #: 13 Filed: 12/27/19 Page: 7 of 15 - Page ID#: 109

v. Conner, 115 S.-Ct. 2293, 2300 (1995). With these standards in mind, the Court turns to the
petition.
BOP Regulation Non-compliance
Craig’s first three grounds allege various procedural irregularities. All three claims are
frivolous.
Initially, Craig points to 6-week (following the December 7,2017, events) and 4-day delays
(following the October 18, 2018, rewrite) in BOP’s provision of Johnson’s original and rewritten
incident reports. DE 1-1 at 17-22. Craig, on these points and for several reasons, warrants to relief.
By regulation, the BOP “ordinarily” delivers a report to the charged inmate within 24 hours of
“staffbecoming aware of’the subject’s involvement in atriggering incident. 28 C.F.R. § 541.5(a).3
Yet, the relevant reg does not mandate same-day delivery. See id. (“ordinarily”). The rule
intrinsically contemplates the possibility that prison staff might need additional time to provide an
inmate a report copy. In this case, the group altercation—including two stabbings and an inmate’s

3 The rewritten incident reports did not materially differ, as a notice matter, from the original. Both
originally and as redrafted, Lt. Johnson reported that Craig stabbed two inmates and charged him
with an assault and homicide. Further, Craig does not allege that any brief delay in BOP’s provision
of the report revisions prejudiced him in any way. See Brennan v. United States, 646 F. App’x
662, 666-67 (10th Cir. 2016) (applying harmless error review to Wolff’s 24-hour, pre-hearing
notice requirement).
7

Case: 6:19-cv-00141-REW Doc #: 13 Filed: 12/27/19 Page: 8 of 15 - Page ID#: 110

death—surely necessitated an extended investigation (and likely caused a lengthy lockdown).4
Thus, Craig failed to persuasively allege that BOP violated its regulation. Mendoza v. Tamez, 451
F. App’x 715, 717 (10th Cir. 2011); Booth v. Patton, No. 08-CV-02-HRW (E.D. Ky. 2008) (slip
op. of June 10, 2009 at pp. 3-4).
Craig also claims irregularity in the DHO’s rewrite directive, absent a prior UDC referral.
DE 1-1 at 22-24. Petitioner contends that 28 C.F.R. § 541.8 and/or BOP Program Statement (“PS”)
5270.09 state that a DHO “may not act on a case that has not been first referred by the UDC.” DE
1-1 at 22-23.5 This theory, too, is fatally flawed. Neither the regulation nor the PS contains the
language Craig purports to quote. Instead, §541.8 states that the DHO “will only conduct a hearing
on the incident report if referred by the UDC.” 28 C.F.R. § 541.8 (emphasis added); PS 5270.09,
Ch. 5, § 541.8 (July 2011). The only DHO hearing that Craig identifies, from November 6, 2018,
followed an October UDC referral. See DE 1 -1 at 7-8. The post-referral hearing thus conformed
to BOP regulations.
Craig further complains that the UDC did not hold a hearing on the charges within the
applicable, per § 541.7(c), 5-day period. DE 1-1 at 24-25. This contention fares no better. The

4 Craig also filed a supplemental claim regarding BOP’s failure to timely provide him an
administrative detention order. See DE 8 at 2-3. This claim fails for the same reasons that undercut
Craig’s contentions regarding delayed provision of incident reports. See 28 C.F.R. § 541.25
(detention order provided “ordinarily within 24 hours”). Further, as a procedural due process
matter—the requirements of which, as further detailed later in this Opinion, are not dictated by
agency regulation—Craig, himself, concedes that prison officials notified him of the basis for his
detention on the same day he was placed in the Special Housing Unit (“SHU”). See DE 8 at 2
(Officials claimed “that the interrogation was based on him committing the killing of inmate Leon
Jackson.” (citing “Miranda Rights form dated 12-8-17”)). Moreover, the basis for Craig’s current
“SHU” placement is the DHO’s sanction under 28 C.F.R. § 541.24. See DE 7 at 7. Thus, Craig’s
current “disciplinary segregation status” (per 28 C.F.R. § 541.24) renders his prior “administrative
segregation status” (per 28 C.F.R. § 541.25), at least as a habeas concern, moot.
5 Further, BOP deems 100-level offenses, like Craig’s, of the “Greatest Severity Level[.]” 28
C.F.R. § 541.3. Thus, UDC referral to a DHO is “automatic[.]” 28 C.F.R. § 541.7(a)(4).
8

case: 6:19-cv-00141-REW Doc #: 13 Filed: 12/27/19 Page: 9 of 15 - Page ID#: 111

applicable reg, with a familiar qualifier, indicates only that “the UDC will ordinarily review the
incident report within five work days after it is issued[.]” 28 C.F.R. § 541.7(c) (emphasis added).
Because the policy, itself, requires no strict adherence to the presumptive period, the 9-day period
between incident reporting and the UDC hearing was not violative.
At bottom, as relevant to each of Craig’s first three theories, BOP’s failure to strictly track
its regulations provides no basis for habeas relief. See Sandin, 115 S. Ct. at 2299 (Prison
“regulations [are] not designed to confer rights on inmates[.]”). The Constitution, not agency
regulations, sets procedural due process requirements. See Cleveland Bd. ofEduc. v. Loudermill,
105 S. Ct. 1487, 1493 (1985). Thus, “[a]n agency’s failure to adhere to its own policies or
guidelines does not constitute a violation of due process.” Julick, 2017 WL 5485453, at *2 (citing

<■

Loudermill, 105 S. Ct. at 1493-94, Smith v. City of Salem, Ohio, 378 F.3d 566, 578 (6th Cir.
2004)); see also Wallace v. Federal Detention Ctr., 528 F. App’x 160,162-63 (3d Cir. 2013). Per
Wolff, due process, in prison disciplinary cases, requires 24-hour pre-hearing notice; it does not
create temporal strictures on the timeline between triggering events, charge filing, or any hearing.
Craig acknowledges that BOP provided him notice of the charges more than a week before any
hearing. Due process, as to notice, requires no more. See, e.g., Whyte v. Snyder-Norris, 2017 WL
4171133, at *1 (6th Cir. June 27, 2017) (“Whyte’s disciplinary hearing took place on September
26, 2014, fifteen days after he received the notice—after the BOP’s ‘ordinary’ timing for holding
disciplinary hearings, 28 C.F.R. § 541.7(c), but well beyond the 24-hours’ advance notice required
by Wolff”).
Evidentiary Issues
Next, Craig contends he was denied an opportunity to present evidence at a UDC hearing,
as 28 C.F.R. § 541.7(d)-(e) permits, on the initial incident report. DE 1-1 at 24-25. Yet, Craig

9

'

Case: 6:19-cv-00141-REW Doc #: 13 Filed: 12/27/19 Page: 10 of 15 - Page ID#: 112

fails to identify any specific evidence that he intended to present or would have offered. And, at
the subsequent DHO hearing, Craig gave only a blanket denial. Thus, the Court is dubious of
Craig’s present claims regarding UDC presentation. In any event and given charge gravity, any
supposed evidence could not have impacted the outcome of a UDC hearing. The UDC-DHO
referral was, for Craig’s offenses, automatic. See 28 C.F.R. § 541.7(a)(4). Further, the UDC made
no determination regarding Craig’s guilt and imposed no sanctions. Petitioner had a full
opportunity to offer any proof he deemed relevant at the DHO hearing (and prior to imposition of
any sanctions). Thus, Craig shows no deprivation of any due-process-protected interest stemming
from the alleged evidence-presentation denial. See Wolff, 94 S. Ct. 2975 (requiring constitutionally
minimum procedures before “deprivation” of “right to good time”).
Craig, with two supplemental filings, also complains that the BOP has refused to disclose
portions of his “Central File” concerning the subject proceedings. DE 8 at 3; DE 11 at 2-4.
Specifically, Craig references “memorandums approving investigations, excusing delays, and
Miranda Rights form[s].” DE 11 at 3. The record shows that Craig requested a “Miranda Rights”
form and a copy of his “lock-up order” on January 16,2018. DE 8-1. Petitioner’s claims regarding
denial of these documents plainly show no procedural due process violation. First, Petitioner did
not seek to present any documentary proof or raise any claim that such proof was needed during
the at-issue DHO hearing. See generally DE 7. Thus, Craig’s contentions do not, facially, show a
violation of his right to “present documentary evidence in his defense[.]” See Wolff, 94 S. Ct. at
2979.

10

v

Case: 6:19-cv-00141-REW Doc #: 13 Filed: 12/27/19 Page: 11 of 15 - Page ID#: 113

Further, Craig does not explain how either document would have been helpful to his
defense, or, for that matter, relevant6 to the charges.7 See id. (“[A]n individual threatened with
serious sanctions would normally be entitled to present witnesses and relevant documentary
evidence[.]”); Rasheed-Bey v. Duckworth, 969 F.2d 357, 362 (7th Cir. 1992) (inmate properly
denied evidence that “was not exculpatory”). A prisoner does not have an unalloyed due process
right to documents prior to disciplinary proceedings. Rather, the analysis, as to documentary
evidence, must also account for “the needs of the prison, and some amount of flexibility and
accommodation is required.” Wolff, 94 S. Ct. at 2980. Craig fails to tether any denial of the subject
records to the liberty deprivations challenged in his petition. Thus, as to the “balance [of Craig’s]
interest in avoiding loss of good time against the needs of the prison,” Petitioner, as to these
records, offers nothing for his side of the scales. Id. at 2979-80. That is, denial of clearly nonexculpatory, irrelevant documents did not impact Craig’s “interest in avoiding loss of good time[.]”
Id. Consequently, the balance unequivocally tips to the institution and Craig’s contentions plainly
fall within “[p]rison officials . . . necessary discretion ... to limit access . . . [to] documentary
evidence.” Id. In sum, BOP gave Craig an opportunity to present documentary evidence, and, even
if Craig had pursued, and the DHO denied, submission of the Miranda form and detention order,

6 See Fed. R. Evid. 401 (“Evidence is relevant if: (a) it has any tendency to make a fact more or
less probable than it would be without the evidence; and (b) the fact is of consequence in
determining the action.”); see also Mitchell v. Howard, 419 F. App’x 810, 815 (10th Cir. 2011)
(holding that a “DHO’s failure to produce and review” a “legally irrelevant... work-crew log was
not prejudicial to [petitioner], and the error, if any, was harmless.”); Evans v. Turner, 54 F.3d 779
(7th Cir. 1995) (table) (concluding DHO’s “properly denied” documentation “as [ ] irrelevant”).
7 As to the Miranda Rights form, the DHO did not rely on any incriminating Craig statements in
reaching a guilt determination or imposing the challenged sanctions. Indeed, per the record, Craig
“declined to make a statement without a lawyer present” during a post-incident interview. DE 7 at
6. The Court has already addressed the fatal flaws in Craig’s contentions regarding delayed
provision of the detention order. Further, the order itself reveals no information that was not
included in the record before the DHO (and certainly nothing exculpatory). See DE 8-1 at 1.
11

Case: 6:19-cv-00141-REW Doc #: 13 Filed: 12/27/19 Page: 12 of 15 - Page ID#: 114

exclusion of that plainly irrelevant proof would not have led to a deprivation of any protected
interest without due process.
As to any other documents, Craig, from what this record shows, did not ask to review his
file until May 2019. See DE 11-1 at 1. The BOP advised Craig in July that “[o]nce you arrive at
your designated institution, your file will be readily available for your review.” Id. at 2. Again,
Craig did not attempt to introduce documentary proof at the DHO hearing. Craig simply fails to
explain how a current access delay provides any basis for disturbing a disciplinary decision issued
6 months before he requested the subject documents. See also Turk v. Wilson, No. 6:ll-cv-47,
2011 WL 2534224, at *3 (E.D. Ky. June 27, 2011) (“Turk alleges that by denying him access to
various records he requested under the FOIA, the DOJ and the Trial Court violated his Fifth
Amendment due process rights, which he alleges is an actionable claim. However, such a claim
cannot be asserted in a § 2241 habeas proceeding[.]”) (citing Martin v. Overton, 391 F.3d 710,714
(6th Cir. 2004); Sullivan v. United States, 90 F. App’x 862, 863 (6th Cir. 2004)).
At bottom, as to all of the document-related contentions, Petitioner offers nothing to
suggest that any lack of access rendered the DHO hearing or BOP procedure inconsistent with
“any recognized principle of fundamental fairness.” Dist. Attorney's Office for Third Judicial Dist.
v. Osborne, 129 S. Ct. 2308, 2320 (2009) (finding procedures “not inconsistent with the traditions
and conscience of our people or with any recognized principle of fundamental fairness”
constitutionally adequate (citations and quotation marks omitted)). Thus, Craig is plainly not
entitled to relief on these claims.
Finally, Craig argues that the DHO failed to consider exculpatory evidence in relying on
the Lt. Johnson’s description of the altercation video rather than personally viewing the footage.
DE 1-1 at 26-28. Petitioner states no viable due process claim on this basis. Wolff establishes that

12

Case: 6:19-cv-00141-REW Doc #: 13 Filed: 12/27/19 Page: 13 of 15 - Page ID#: 115

prisoners must have an opportunity to present evidence, and the DHO gave Craig that chance. See,
e.g., DE 7 at 2. Craig, at the hearing and as to the video, asked the DHO if he had watched the
footage. See id. Petitioner attempts to spin an alleged request for “video review”8 as a denial of his
right to put on proof. The Court is unconvinced. Craig does not claim that he requested the tape,
Or that the DHO rejected an attempt to offer it into evidence. See also DE 7 at 2, 9 (Craig “did not
ask [Rowe] to review anything specific prior to the hearing.”). At the hearing, Craig offered only
his own testimony. In short, the fact that the DHO was allegedly unwilling to conduct an
investigation that Craig did not, himself, undertake (or request an opportunity for same) does not
amount to a denial of any due process right. See Nerlich v. Quintana, No. 12-CV-325-JMH, 2013
WL 875909, at *5 (E.D. Ky. Mar. 7, 2013) (“The Due Process Clause does not entitle [petitioner]
to a formal investigation at all, let alone one that provides him with evidence to use to bolster his
defense.”), aff'd (Nov. 26, 2013).
Because the “[Revocation of good time credits is not comparable to a criminal conviction,”
there is no due process requirement that a DHO consider all available evidence. Hill, 105 S. Ct. at
2774; see Miles v. USP-Big Sandy, No. 7:11-CV-00058-KSF, 2012 WL 1380274, at *3 (E.D. Ky.
Apr. 20,2012) (“The inquiry in cases like this is only whether there was ‘some’ evidence to support
the guilty verdict, even if other evidence ... may have been exculpatory in nature.”). Instead, the
DHO’s decision must “have some basis in fact.” Id. Hill's “some evidence” standard is a lenient
one, requiring only “a modicum of evidence” to support the outcome, and is met if the record
contains any evidence that could support the DHO’s decision, Id. at 2774-75.
On this basis, courts have repeatedly rejected claims essentially identical to Craig’s theory:

s The Court notes, but does not rely on, the fact that Craig’s representations on this point are
contrary to Rowe’s narrative regarding the subject events. See id. at 2, 9.
13

Case: 6:19-cv-00141-REW Doc #: 13 Filed: 12/27/19 Page: 14 Of 15 - Page ID#: 116

[A] prison surveillance videotape allegedly containing exculpatory footage need
not be presented at a hearing or reviewed by a disciplinary hearing officer in order
to satisfy the “some evidence” standard needed to uphold a disciplinary conviction.
Flanigan v. Wilson, No. 10-cv-l 11-GFVT, 2011 WL 5024432, at *6 (E.D. Ky. Oct. 20, 2011)
(citing Campbell v. Holt, 432 F. App’x 49, 51 (3d Cir. 2011) (“[T]he existence of alleged videotape
surveillance footage that might have been helpful to Campbell’s defense does not nullify the
conclusion that the DHO decision was supported by ‘some evidence.’”); Davis v. Zuercher, No.
08-CV-207-KKC, 2009 WL 585807, at *3 (E.D. Ky. Mar. 6, 2009) (collecting cases), aff'd, No.
09-5398 (6th Cir. Dec. 16, 2009); Cruzen v. Haynes, No. 1:06CV137, 2007 WL 3146383, at *3
(N.D. W.Va. Oct. 25, 2007); Hadden v. Mukasey, No. 07-CV-7909, 2008 WL 2332344, at *3
(S.D.N.Y. June 3, 2008)); see also Neal v. Casterline, 129 F. App’x 113, 115 (5th Cir. 2005)
(“[Petitioner] has not shown that the DHO’s refusal to review the videotape denied him due
process[.]”); Redmond v. Holland, No. 15-CV-30-DLB, 2015 WL 4167809, at *6 (E.D. Ky. July 9,
2015) (“[A] prisoner’s claim that a DHO failed to view a video tape, or that he did not do so at the
point in time requested by a prisoner, simply does not rise to the level of a due process violation.”).
Here, Lt. Johnson’s summary of the video footage was detailed, consistent with the medical
records, and provides ample evidence to support the DHO’s decision. Were this not enough, the
surviving victim, Simpson, identified Craig as his (and Jackson’s) assailant. See DE 7 at 6.
In sum, the DHO’s determination was not arbitrary; the full process that BOP provided
Craig before imposing the disputed sanctions included all IFo/^-required safeguards, and Craig
fails to state any non-frivolous due process claim:
For all these reasons, and under the applicable standards, the Court ORDERS as follows:
1.

The Court DENIES DE 1; and

2.

The Court will enter a separate Judgment.

14

Case: 6:19-cv-00141-REW Doc #: 13 Filed: 12/27/19 Page: 15 of 15 - Page ID#: 117

This the 27th day of December, 2019.
Signed By:
SB Robert E. Wier

'jactT-

United States District Judge

15

No. 20-5155

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

Sep 11, 2020
DEBORAH S. HUNT, Clerk

CORNELIUS KENYATTA CRAIG,

)
)
)
)
)
)
)
)
)
)
)
)

Plaintiff-Appellant,
v.
ANDRE MATEVOUSIAN, WARDEN,
Respondent-Appellee.

ORDER

BEFORE: ROGERS, NALBANDIAN, and MURPHY, Circuit Judges.
The court received a petition for rehearing en banc. The original panel has reviewed the
petition for rehearing and concludes that the issues raised in the petition were fully considered
upon the original submission and decision of the case. The petition then was circulated to the full
court. No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

